%

No,

21-5733

ORIGINAL
Supreme Court, U.S.
FILED

SEP 1 4 2021
IN THE

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

ERIC WESTRY—PETITIONER
vs.

VICTOR LEON—RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT
PETITION FOR WRIT OF CERTIORARI

ERIC WESTRY—Pro se
3250 E. MAIN STREET APT 52
WATERBURY, CT 06705
203.819.4163

*•

QUESTIONS PRESENTED
1. How is it proper and legal for the court to state there were undisputed facts of
physical assault, threatening behavior, and physical resistance of Eric Westry
against the police in the face of continuous objections disputing this false
narrative for 1,984 (11 SEPTEMBER 2021) days counting—here and in other
courts-—that Eric Westry did NOT assault his wife and was awakened by the
pounding on the door just prior to being broken down by the police?
2. How can assisting the police, reaching out toward the nearest officer to hand his
child represented on the audio-video evidence with Mr. Eric Westry stating
under duress “I am handing her to you” while other officers nonsensically were .
pulling in the opposite direction, not cooperating or employing their requirement
of reassessment of the threat continuum—BECAUSE THERE WAS NONE—be
considered and misconstrued as being non compliant and threatening?
3. How is this false narrative not an invention of the police and state attorneys in
the face of Maria Westry’s testimony under oath confirmed this vis-a-vis the
acne on her face not representing slap marks?
4. If there is no record of Mr. Eric Westry admitting to assaulting his wife (because
he did NOT), in a dismissed case and no allocution why is it considered by the
judges as no dispute to a victim services narrative that he assaulted his wife?
5. Where are the pictures of these so-called slap marks if this were not a Brady
Violation and conspiracy between police and prosecutors to claim injuries that
were never photographed and documented in a file?
n

6. How can the court decide that a cooperating father handing his daughter over to
the police, who then fire their weapon at both father and daughter not be
considered culpable of excessive force and therefore still be in compliance with
the rules granting qualified immunity?
7. Isn’t an issue of genuinely disputed facts, a matter for a jury to decide under the
forgoing circumstances and not the district judge?
8. Considering the forgoing, isn’t it true that under Rule 56 (c) the court should
have denied summary judgment because the objection brief and video—
including facts falsely deemed undisputed within—are indicative that the non
movant is entitled to it?

in

LIST OF PARTIES
[X] All parties appear in the caption of the case on the cover page.

IV

TABLE OF CONTENTS
PAGE NUMBER
OPINION BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT

8
30

CONCLUSION
INDEX TO APPENDICES

PAGE
APPENDIX A: United States Court of Appeals For The Second Circuit
I. En Banc Hearing Petition United States Court of Appeals For The Second
Al
Circuit Summary Order
II. United States Court of Appeals For The Second Circuit Summary
Order.............................................................................................................

A2

APPENDIX B: United States District Court District of Connecticut
I. United States District Court District of Connecticut, Ruling and Order on
Motion for Summary
Judgment
A6
II. United States District Court District of Connecticut

A21

APPENDIX C: There were no “undisputed facts” that I “was noncompliant
and threatening.” Superior Court Judicial District of Waterbury at
Waterbury, CT
I. Dissolution Answer
A22
II. Superior Court Judicial District of Waterbury at Waterbury, CT, Transcript
Entry of Mrs. Maria Westry’s Testimony Under Eric Westry’s Cross
Examination. Red marks were not from slapping (adult
A23
acne)
III. Hon. Lloyd Cutsumpas

A25
v

A27

IV. Hon. Eric D. Coleman..

V. Red Marks NOT slap marks: E-mail exchange between Eric Westry and
Counsel John R. Williams, Esq.
1. “False Sworn Police Statements under penalty of perjury,” e-mail and
Transcript attachment of “False Police Report”
A29, A30
2. Scanned transcripts e-mailed by Attorney John R. Williams....A31
APPENDIX D Video:
I. Victor Leon and Waterbury Police’s Commission of Excessive Force Without
A32
Qualified Immunity
APPENDIX E Proof of Indigence
A33
I. Motion for Leave to Proceed Informal Pauperis
II. Granted Motion for Copying Waiver for Principal Brief and Reply Brief...A34

vi

y-

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
Chamberlain v. City of White Plains,
No. 16-3935 (2d Cir. 2020).................

vii, 26

Connecticut v. Moore

vii, 31

Kaytor u. Electric Boat Corporation,
nd
609 F.3d 537, 545-6 (2
Cir. 2010)

vii, 17

Mapp v. Ohio,
367 U.S. 643 81 S. Ct. 1684; 6 L. Ed. 2d 1081; 1961 U.S. LEXIS 812; 86 Ohio L. Abs.
vii, 19
513; 16 Ohio Op. 2d 384; 84 A.L.R.2d 933
Muschette on Behalf of A.M. v.Gionfriddo,
nd
Cir. 2018), citing Garcia v. Dutchess Cty., 43 F. Supp. 3d 281,
910 F.3d 65, 69 (2
vii, 16, 18, 19
297 (S.D.N.Y. 2014); 182 F.3d at 159
Muschette, 910 F.3d at 69 (citing Tracv v. Freshwater, 623 F.3d 90, 96-98
(2d Cir. 2010); Garcia v. Dutchess Cty., 43 F. Supp. 3d 281, 297 (S.DiN.Y. Aug. 21,
vii, 30
2014)
Pierson v. Ray,
386 U.S. 547 (1967)
87 S. Ct. 1213; 18 L. Ed. 2d 288; 1967 U.S. LEXIS 2791
Reeves v. Sanderson Plumbing Products, Inc
530 U.S. 133, 150 (2000)....................................
Rochin v. California
101 Cal. App. 2d 140, 143, 225 P. 2d

vii, 8

vii, 16

vii, 23, 24

Scott v. Harris,
550 U.S. 372 (2007); Addona v. D’Andrea, 692 Fed. Appx. 76 (2017)
Soto v. Gaudett,
nd
862 F.3d 148 (2
Cir. 2017)

vii, 32

vii, 16

STATUTES AND RULES

Vll

viii, 2, 20, 22

42 U.S.C.§1983 and §1988

viiii, 3, 20

28 §1331, §1343(3) and 1367(a)

17a-101k-3 of the Regulations of Connecticut State Agencies. Reg. Conn. State
Agencies § 17a-101k-8(j)
viii, 25
Connecticut Statues and Civil Rights Laws included but are not limited to, Equal
Protection: Article First, Section 20 as amended by Article V and Article XXI of the
Amendments to the Connecticut
Constitution
viii, 24
CONN. GEN. STAT. § 54-84b

viii, 15

46a-58(a)........................................................
46a-69............................................................
46a-71(as amended by Public Act 01-28)

.....viii, 24
...... viii, 24
.......viii, 24

Federal Rules of Civil Procedure Rule 56(c)

iii, viii, 3

Fourth Amendment of the United States Constitution Due Process Violations
viii, 20, 30
Eighth Amendment of the United States Constitution (Cruel and Unusual
Punishment)
viii, 25, 27, 33
Fifth Amendment of the United States Constitution

viii, 19, 33

Fourteenth Amendment of the United States Constitution

viii, 13, 33

Violent Crime Control and Law Enforcement Act of 1994, 42 U.S.C. § 14141,
additionally the “Safe Streets Act” Omnibus Crime Control and Safe Streets Act of
1968, 42 U.S.C. § 3789d Title VI and VII of the Civil Rights Act of 1964
viii, 24

viii

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner Eric Westry respectfully prays that a writ of certiorari issue to review the
judgment below by the United States Court of Appeals for the Second Circuit.
OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A1-A5
the petition and is
[ ] reported at; or, [ ] has been designated for publication but is not yet
reported; or,
[X] is unpublished. 20-203 Eric Westry v. Victor Leon
The opinion of the United States district court appears at Appendix A6-A21
the petition and is
[ ] reported at; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished. Eric Westry v. Victor Leon 3:17-cv-00862 (VAB)
JURISDICTION
[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was 2
MARCH 2021.
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: 22 APRIL 2021, and a copy of the order
denying rehearing appears at Appendix.
[X] An extension of time to file the petition for a writ of certiorari was
granted due to the Severe Acute Respiratory Coronavirus-2 (SARS-CoV-2)
Pandemic which causes Coronavirus Disease (COVID-19) to and including
(18 SEPTEMBER 2021) on (date) in Application No. A .
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1)
1.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
42 U.S. Code § 1983 - Civil action for deprivation of rights
Every person who, under color of any statute, ordinance, regulation, custom, or
usage, of any State or Territory or the District of Columbia, subjects, or causes to be
subjected, any citizen of the United States or other person within the jurisdiction
thereof to the deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action at law, suit in
equity, or other proper proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in such officer’s judicial
capacity, injunctive relief shall not be granted unless a declaratory decree was
violated or declaratory relief was unavailable. For the purposes of this section, any
Act of Congress applicable, exclusively to the District of Columbia shall be
considered to be a statute of the District of Columbia.
42 U.S. Code § 1988 - Proceedings in vindication of civil rights
(a)Applicability of statutory and common law
The jurisdiction in civil and criminal matters conferred on the district courts by the .
provisions of titles 13, 24, and 70 of the Revised Statutes for the protection of all
persons in the United States in their civil rights, and for their vindication, shall be
exercised and enforced in conformity with the laws of the United States, so far as
such laws are suitable to carry the same into effect; but in all cases where they are
not adapted to the object, or are deficient in the provisions necessary to furnish
suitable remedies and punish offenses against law, the common law, as modified
and changed by the constitution and statutes of the State wherein the court having
jurisdiction of such civil or criminal cause is held, so far as the same is not
inconsistent with the Constitution and laws of the United States, shall be extended
to and govern the said courts in the trial and disposition of the cause, and, if it is of
a criminal nature, in the infliction of punishment on the party found guilty.
(b) Attorney’s fees
In any action or proceeding to enforce a provision of
sections 1981, 1981a, 1982, 1983, 1985, and 1986 of this title, title IX of Public Law
92-318 [20 U.S.C. 1681 et seq.], the Religious Freedom Restoration Act of 1993 [42
U.S.C. 2000bb et seq.], the Religious Land Use and Institutionalized Persons Act of
2000 [42 U.S.C. 2000cc et seq.], title VI of the Civil Rights Act of 1964 [42 U.S.C.
2000d et seq.], or section 12361 of title 34, the court, in its discretion, may allow the
prevailing party, other than the United States, a reasonable attorney’s fee as part of
the costs, except that in any action brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity such officer shall not be held liable
for any costs, including attorney’s fees, unless such action was clearly in excess of
such officer’s jurisdiction.
2

(c) Expert fees
In awarding an attorney’s fee under subsection (b) in any action or proceeding to
enforce a provision of section 1981 or 1981a of this title, the court, in its discretion,
may include expert fees as part of the attorney’s fee.
28 U.S. Code § 1331 - Federal question
The district courts shall have original jurisdiction of all civil actions arising under
the Constitution, laws, or treaties of the United States.
28 U.S. Code § 1343 - Civil rights and elective franchise

(3) To redress the deprivation, under color of any State law, statute, ordinance,
regulation, custom or usage, of any right, privilege or immunity secured by the
Constitution of the United States or by any Act of Congress providing for equal
rights of citizens or of all persons within the jurisdiction of the United States;

28 U.S. Code § 1367 - Supplemental jurisdiction
(a) Except as provided in subsections (b) and (c) or as expressly provided otherwise
by Federal statute, in any civil action of which the district courts have original
jurisdiction, the district courts shall have supplemental jurisdiction over all
other claims that are so related to claims in the action within such original
jurisdiction that they form part of the same case or controversy under Article III
of the United States Constitution. Such supplemental jurisdiction shall include
claims that involve the joinder or intervention of additional parties.
Rule 56. Summary Judgment

(c) Procedures.
(1) Supporting Factual Positions. A party asserting that a fact cannot be
or is genuinely disputed must support the assertion by:
(A) citing to particular parts of materials in the record, including
depositions, documents, electronically stored information, affidavits or
declarations, stipulations (including those made for purposes of the
motion only), admissions, interrogatory answers, or other materials; or
(B) showing that the materials cited do not establish the absence or .
presence of a genuine dispute, or that an adverse party cannot produce
admissible evidence to support the fact.

3

(2) Objection That a Fact Is Not Supported by Admissible Evidence. A party may
object that the material cited to support or dispute a fact cannot be presented
in a form that would be admissible in evidence.
(3) Materials Not Cited. The court need consider only the cited materials, but
it may consider other materials in the record.
(4) Affidavits or Declarations. An affidavit or declaration used to support or
oppose a motion must be made on personal knowledge, set out facts that
would be admissible in evidence, and show that the affiant or declarant is
competent to testify on the matters stated.

4

STATEMENT OF THE CASE
On 23 May 2017 John R. Williams filed appearance and current complaint on Eric
Westry’s behalf against Victor Leon for excessive force and deprivation of rights
engendered in the laws of the United States and the State of Connecticut.
Defendant appearances on 26 June 2017; Amended scheduling order occurred 11
February 2019; 17 June 2019 Motion for Summary Judgement by defense;
Opposition Memorandum to Summary Judgement filed by Plaintiff on 5 July 2019
with NOTICE of Manual Filing of Exhibit 1 (on MSDl) video recording of Plaintiff
11 July 2019; Reply by defense to Summary Judgement response; Summary
Judgement hearing before Judge Victor A. Bolden; Order granting in part and
denying in part Motion for Summary Judgement with clerk directed case closure, 21
December 2019; Judgement 30 December 2019; Appearance of Eric Westry 15
January 2020; Notice of appeal and Concomitant Motion for Leave to Proceed in
forma pauperis thereto, 16 January 2020.

DECISION:

Judge Victor A. Bolden—in reversing the order of events—stated “Mr. Westry also
admits that in the exchange with police officers, if they were attempting to grab his
infant daughter Amelia” [sic] (again, who is Amelia? As he deliberately leaves off
the African half of my daughter’s first name) “he was also ‘pulling back. Westry
Dep. at 73:3-6 (‘Q: ... as they were pulling [on Amelia]’ [sic], (again, who is

5

“Amelia”? As he deliberately leaves off the African half of my daughter’s first name)
“you were also pulling, correct? A: ‘If they were pulling my arms, I was

pulling back.’ Omitting the context of pulling back TOWARDS THE NEAREST
OFFICER.). Mr. Westry also can be heard telling the police officers, ‘you going

to have to kill me,’ when asked to comply with the police officer’s instructions.” This
comment, to protect his home, from an unannounced, unwelcome invasive force in
NON-EXIGENT CIRCUMSTANCES was heard from the plaintiff before the 00:27
seconds mark of 02:31. The police kicked down the Plaintiffs door, woke him up,
abandoned community policing procedures of defuse and deescalation, and began to
behave as if they were disarming an unarmed homeowner in their deadly assault in
just 27 seconds, firing their weapon on Eric Westry and his daughter A.W.
indicative of recklessness bereft of restraint from the police. The aforementioned
comment did not come DURING multiple officers pulling and assaulting Mr. Westry
and his daughter Amelia- Amenirdis (NOT AMELIA). “I am handing her to you”
however, DID COME DURING the “exchange” vis-a-vis Bolden’s incongruous
account. “They” and “officers” ignored in the deposition, prove there were multiple
forces pulling in different directions as the plaintiff tried to hand and communicate
his intent to the closest officer, that he was reaching toward him in compliance.
Inexplicably and contrary to facts and logic he relies on, Judge Bolden “testifies and
deliberates”— IN LIEU OF A WHAT A JURY SHOULD OR SHOULDN’T DO, IN
THEIR RESPONSIBLE SOLE ROLE AND CAPACITY, MAKING DECISIONS—
6

the following: “The undisputed facts thus indicate that Mr. Westry was both noncompliant and threatening.” Under those aforementioned FACTUAL conditions,
requirements and parameters espoused by Judge Boden himself—Mr. Westry and
his daughter A.W. (NOT “Amelia”) ARE BOTH COMPLIANT AND NON
THREATENING. Nevertheless Judge Bolden’s inexplicable decision— leaving out
and chronologically reordering facts, not acknowledging or omitting opposing forces
by multiple officers—was the following: “The undisputed facts thus indicate that
Mr. Westry was both non-compliant and threatening.” Nonplussed by this non
sequitur, this appellant turns to the Justices of the Supreme Court of the United
States.

7

REASONS FOR GRANTING THE WRIT
The question of Qualified Immunity is the most controversial legal issue of
our time, denying justice to countless Black people—specifically Black men before it
was formally addressed in 1967 Pierson v. Ray, 386 U.S. 547 (1967) 87 S. Ct. 1213;
18 L. Ed. 2d 288; 1967 U.S. LEXIS 2791, throughout hundreds of years of African
Slavery and subjugation from a White unaccountable authority codified in social
culture and the legal system of the United States. High profile cases have exposed
the injustice of near zero accountability for the police terrorizing our communities.
As Judge Victor A. Bolden wrote, “To the extent that Mr. Westry is arguing that his
offer to give them the infant child, after they began using more force, but before the
use of the TASER, constitutes compliance sufficient to make the TASER’s use
excessive, there is no clearly established law that would result in liability for Officer
Leon at that level of specificity.” In light of the untrue assertion—really lie—of
“undisputed facts” and the foregoing attempt SAYING AND ENACTING “I AM
HANDING HER TO YOU” is proof positive that Mr. Westry and his child were fired
upon while more than compliant and non threatening, physically offering his child
to the nearest officer. Only the Supreme Court of the United States can settle this
“clearly established law” in providing a more comprehensive understanding of what
police can or cannot do with impunity.
“Westry primarily contends that, because he told officers that he would hand
his young daughter over to them, he could not have been threatening and noncompliant.” There was no “...he TOLD the officers, that he WOULD hand his young
8

daughter over to them...,” IT WAS HAPPENING but the officers, MORE
INTERESTED IN PUNISHMENT, chose to fire at us instead of taking my child,
CLEARLY BEING OFFERED TO THEM. This is the very definition of compliance
and non threatening behavior regardless of what was said and reversed before
(hence the court reordering the chronological facts is deceptive). The police and
defendant rely on the need for pacification of a threat. Pacification is not warranted
for a person assisting the officers before the use of deadly force on a cardiac patient.
The officer was so close, that he could have felt the breath of my words “I AM
handing her to you” much less heard them.
The court contends: “On appeal, Westry does not challenge the district court’s
legal determination about what constituted a violation of an arrestee’s clearly
established rights at the time of the encounter. He instead contests the district
court’s determination that the undisputed facts established that Westry was
threatening and non-compliant during the encounter.” How is it that the court
can put words in my mouth, saying “facts” were undisputed when I am
explicitly disputing them, having done so for 1,984 days with probative
dispositive documentary and audio/video evidence and my brief (p.7, 8),
reply and below?
A perfect example of this is the following startling remark by the court: “...he
told officers that he would hand his young daughter over to them, he could not have
been threatening and non-compliant.” This is a lie for qualified immunity! I was
doing it! The same is true of this: “Finally, Westry concedes that he resisted officers’
9

attempts to “pry [his] arms open” [sic] while they asked him to release his daughter.
Id. at 17,” business deliberately omitting that I was not resisting but “pulling back”
towards and offering my child to the nearest officer demonstrated in the video for
the same reason in the video evidence, which controls is ignored. VIDEO
CONTROLS.
Therefore, in the event of both the court and defense failing to properly
address or support a fact, under Rule 56 (c) the court should have denied summary
judgment because the objection brief and video—including facts deemed undisputed
within—are indicative that the non-movant is entitled to it.

The tone was set by a call to the police, apparently by victim services. The
court states, “He does not dispute the Victims Services call that he has a verbal and
physical altercation with Mrs. Westry. Id. at 1.” N.B.: The plaintiff has been writing
motions for the past 1,984 DAYS in several courts—multiple in Waterbury, and one
in New Britain and Bridgeport (Cases: UWY-FA-16-6031090- S, UWY
CV-18-5021356-S, UWY-CV-17-5021057-S, UWY-CV-18-5021357-S, UWYCV-17-5021056-S, HHB-CV17-5020951-S, 3:17 CV 640, and Claims Commission
Case #25349 )—proclaiming his innocence and has NEVER failed to dispute the
claim that Eric Westry assaulted his wife nor has there been any such allocution,
most tellingly, in this court’s record of this DISMISSED case:

Maria Westry stated UNDER OATH in Family Court under Eric Westry’s
cross examination that the marks on her face were anything other than adult acne,
10

was an invention of the police: Judge Robert Nastri’s court 27 JUNE 2016, Page 16,
Lines 23-26 “BY MR. WESTRY: Q: “So the police report indicated that you
had been slapped in the face—that you had redness on your face.” Pages 16,
17 Line 27 and 1: MRS. WESTRY: “A: I never said I had redness from being
slapped in the face.” This is evidence that there was no evidence of the assault
the police manufactured while suborning perjury over and over again in this case in
their sworn statements. This particular evidence is confirmatory of the absence of
evidence of at least this: probable cause. In the police’s required assessment of the
threat continuum, their guard should have been lowered. Police might consider that
Mr. Westry was being set up by his wife instead of leaping to the conclusion that a
certified and licensed clinician charged with the mission of protecting and caring for
children daily—surely inquired about in his requisite assessment of the threat
continuum along with whether there were any weapons in the home— would
conclude that Mr. Westry was NOT likely to harm his own child.

This narrative that Mrs. Westry was hiding under the table is accepted by
Judge Bolden and the Appellate Court? Who told them that? What happened to
“Trust but verify” if the defense makes the point to say that their meeting Mrs.
Westry was at the car and NOT meeting her under the table. This “undisputed”
rhetoric is like whispering into the right end of a circle of people and getting an
entirely different answer back to your left ear. It doesn’t make sense in light of this
portion of my brief: “Judge Bolden also erred in testifying that the Plaintiff never

11

disputed any charge of assaulting his wife. This is clearly a lie, evidenced by the
1,984 days and counting, of him defending his innocence. There has NEVER been
an allocution to any crime presently nonexistent due to dismissed charges.
Therefore the claim by the defendant of an assault with NO PICTURES or evidence
is specious and does not warrant the home invasion that proceeded.” This is a
conspiracy to say their were injuries AFTER it was too late to take pictures of these
ostensible “slap marks.” Were was the confidence in this yarn the defense is
spinning not present in their notes and false police reports? It undermines their
entire defense.

My attorney’s opposition to Summary Judgment states: “The undisputed
facts of this case are that the defendant was dispatched to the plaintiffs residence
pursuant to a call alleging that the plaintiff had assaulted the mother of his child.
Upon arrival at the residence, the defendant admits that the alleged victim was
outside the house and that she did indeed report that the plaintiff had assaulted her
with his hands.” “ALLEGING.” When does alleging mean confession and conviction
on a case dismissed, no less? The courts have received a message back to their left
ear that was CONFESSION from the defense when the original message from the
plaintiff was “ALLEGING,” thus conflating the two. (I would like to know what calls
and Internet contacts Mrs. Westry made concocting a story before, during, and after
any call to victim services and discussion with the police, which a jury would know
but for the district appellate courts acceptance of unverifiable allegations. The

12

violations of the Fourteenth Amendment of Equal Protection clause is violated once
again the this historic theme that a White woman can accuse a Black man of
anything, putting his life at risk during and since this case!)

Per the Appellate Court, “We review orders granting summary judgment de
novo.” Really? Parroting the district court, the appellate court also states: “Westry
does not dispute, however, that when officers arrived at his home in response to an
emergency call, his wife reported that Westry had assaulted her and that Westry
had locked himself in a bedroom with their one-year-old daughter.” This is a LIE!
IT HAS BEEN CONTESTED IN COURT FOR 1,9844DAYS AND COUNTING IN
THIS AND ALL LITIGATIONS ASSOCIATED WITH THIS EVENT. Judge Bolden
in the district court asserts: “A call to the Victim Services’ Hotline from Mrs. Westry
prompted Officer Leon’s visit. Id. f 13. In that call, Mrs. Westry described being
under the kitchen table, while her husband was locked in the bedroom with their
baby daughter, Amelia. Id. (Again, deliberately omitting my child’s Legal African
FULL FIRST name, “A.W.”) When Officer Leon and other police officers arrived,
Mrs. Westry described having been assaulted by Mr. Westry and stated that he
continued to be locked in the bedroom with their child. Id.

14. Mr. Westry

allegedly had ‘slap[ped] her in the face numerous times and drag[ged] her out of the
bedroom.’ Id. H 15. Officer Leon noticed red marks all over Mrs. Westry’s face. Id.”
First, why would Mrs. Westry be hiding under the only table directly in front the

13

staircase while what’s underneath is immediately visible while descending the
stairs? There is just one table in the whole home, just one!

Not present or witnessing this “hiding under the table.” but using it as part of
his decision making, Judge Bolden savs that the defendant savs: “Officer Leon
argues that ‘from the perspective of a reasonable officer on the scene, rather than
with the 20/20 vision of hindsight,’ his use of the TASER was reasonable and
justified. Def.’s Mem. at 7. He reiterates the circumstances leading up to the
officers’ arrival at the Westry home: his dispatch to the Westry home, following a
Victims’ Services Hotline call; the information in the call about a woman hiding
under the kitchen table, while her husband was locked in the bedroom with their
minor child; upon arrival, finding Mrs. Westry crying hysterically; Mrs. Westry
stating that she had been assaulted and that her husband was now locked in the
bedroom with their minor child; observing the red marks on Mrs. Westry’s face,
consistent with her alleged assault; and Mr. Westry “both resisting arrest and
placing the safety of his daughter, Amelia, and the police officer in jeopardy.” Id. at
7-8. [Again, omitting my daughter, A.W.s’ African Identity.]

“Mr. Westry argues that he did not pose any immediate threat to anyone, his
resistance was entirely passive, and he was not attempting to flee. Pl.’s Opp. at 3.
He does not dispute the Victims’ Services call or that he had a verbal and physical
altercation with Mrs. Westry. Id. at 1.” Again, this is a LIE, exposed by my
deposition and repeated testimony, motions, and pleas in various courts including
14

this case for 1,984 days continuing. Why is the court attempting to erase my demur
of those “alternative facts?”

My lawyer received this transcript information on 11 JANUARY 2017 and
scanned the originals left for him upon retainment of the firm when Attorney John
R. Williams provided an electronic copy to his client [Eric Westry on 22 MAY 2017
the SAME DAY he filed NO. 3:17cv'862 (VAB) against the defendant] and would
have never failed to demur this false narrative of assault or displayed acquiescence
to the defense’s claims, therefore denying genuine dispute of facts that would lead
to a summary judgment. Why is it in or inferred in the record by the district and
rubber stamped by the appellate courts? Consequently, my reputation is being
further besmirched by the court by publication across the Internet, insisting that a
licensed and certified clinician who spent his life serving and saving the lives of
children, families, and women in distress and abusive situations as a senior clinical
social worker, Clinical Director, and worker/domestic violence counselor in Harlem
and the psychiatric department of Harlem Hospital, respectively, was actually an
admitted PERPETRATOR! This is OUTRAGEOUS AND UNTENABLE AND ‘
SHOULD BE CORRECTED BY THE COURT. She said she never said she had a
red face or marks because of being slapped and did not have to say so, pursuant to
C.G.S. § 54-84b. This gave the police no reason to weigh Maria Westry’s claim with
her words and no marks or evidence of probable cause, more than the compliant
Eric Westry in the bedroom, the start of the confrontation, notwithstanding. She

15

could have lied—and was lying—on 05.APR.2016 but NOT UNDER OATH ON THE
STAND vis-a-vis marks on her face. This is the defense and invention of the police
upon which they can justify an unwarranted war footing and posture.

Counsel for the Plaintiff is correct “At a minimum, the video evidence in this
case demonstrates the existence of genuine disputes regarding material facts thus
requiring that the defendant’s motion for summary judgment be denied...just as the
evidence supports the plaintiffs contention that unreasonable force was used
against him, and defeats the defendant’s claim to the contrary, so too does the
evidence defeat the affirmative defense of qualified immunity. In that respect, the
defendant admits that ‘[i]t is clearly established that officers may not use a taser
against a compliant or non-threatening suspect.’ Muschette on Behalf of A.M. v.
nd .
Cir. 2018), citing Garcia v. Dutchess Cty., 43 F.
Gionfriddo, 910 F.3d 65, 69 (2
Supp. 3d 281, 297 (S.D.N.Y. 2014) (such force may not be used against an arrestee
‘who no longer actively resisted arrest or posed a threat to officer safety”). The
defendant incorrectly cites Muschette in support of his motion, whereas in fact it
clearly defeats the motion. In that case, unlike in this one, the victim ‘had fled...and
hunkered down in a restricted construction area, holding a large rock.’ Not only was
he in flight, he presented an immediate physical threat to the officer. Neither .
nd
Cir. 2017), the
circumstance is present here. Soto v. Gaudett, 862 F.3d 148 (2
only other case upon which the defendant relies, also does not support his
contention. In that case, the victim was actively in flight from the defendant when
the Taser was deployed. The court specifically held that the force would not have
been reasonable, and qualified immunity would not have been available, were the
victim not actively engaged in flight. 182 F.3d at 159.
‘A motion for summary judgment may properly be granted...only where there
is no genuine issue of material fact to be tried, and the facts as to which there is no
such issue warrant the entry of judgment for the moving party as a matter of
law....The function of the district court in considering the motion for summary
judgment is not to resolve disputed questions of fact but only to determine whether,
as to any material issue, a genuine factual dispute exists....In determining whether
the moving party is entitled to judgment as a matter of law...or whether instead
there is sufficient evidence in the opposing party’s favor to create a genuine issue of
material fact to be tried, the district court may not properly consider the record in
piecemeal fashion, trusting innocent explanations for individual strands of
evidence; rather, it must ‘review all of the evidence in the record,’ Reeves v.
Sanderson Plumbing Products, Inc., 530 U.S. 133, 150 (2000)....And in reviewing all
of the evidence to determine whether judgment as a matter of law is appropriate,
16

‘the court must draw all reasonable inferences in favor of the nonmoving party,’
Reeves, 530 U.S. at 150...,. even though contrary inferences might reasonably be
drawn....Summary judgment is inappropriate when the admissible materials in the
record make it arguable that the claim has merit..., for the court in considering such
a motion must disregard all evidence favorable to the moving party that the jury is
not required to believe....In reviewing the evidence and the inferences that may
reasonably be drawn, the court may not make credibility determinations or weigh
the evidence....Credibility determinations, the weighing of the evidence, and the
drawing of legitimate inferences from the facts are jury functions, not those of a
judge....Where an issue of material fact cannot be resolved without observation of
the demeanor of witnesses in order to evaluate their credibility, summary judgment
is not appropriate....In sum, summary judgment is proper only when, with all
permissible inferences and credibility questions resolved in favor of the party
against whom judgment is sought, there can be but one reasonable conclusion as to
nd
Cir.
the verdict....' Kaytor v. Electric Boat Corporation, 609 F.3d 537, 545-6 (2
2010) (quotation marks and citations omitted).”
“Muschette, 910 F.3d at 70 (‘To determine whether the relevant law was
clearly established, we consider the specificity with which a right is defined, the
existence of Supreme Court or Court of Appeals case law on the subject, and the
understanding of a reasonable officer in light of preexisting law.’s’) (citation and
internal quotation marks omitted). Firing on an unarmed compliant and non­
threatening man—facilitating compliance—and infant is therefore NOT a
reasonable officer and under the Doctrine of Stare decisis ‘[i]t is clearly established
that officers may not use a taser against a compliant or non-threatening suspect.

9 99

How is it that the court can put words in my mouth, saying “facts” were
undisputed when I am explicitly disputing them with probative dispositive
documentary and audio/video evidence and my brief (p.7, 8), reply and
below?

17

A perfect example of this is the following startling remark by the court:

. .he

told officers that he would hand his young daughter over to them, he could not have
been threatening and non-compliant.” This is a lie for qualified immunity! I was
doing it! The same is true of this: “Finally, Westry concedes that he resisted officers
attempts to “pry [his] arms open” [sic] while they asked him to release his daughter.
Id. at 17,” as a misrepresentation for the defense by the court! The truth is that my
child was being offered to the closes officer while others on the opposite side of her
in my arms, were pulling and impeding the exchange. This penchant to believe a
police union lawyers and corporation counsel on their face with incontrovertible
audio-video evidence to the contrary is typical and untenable. These cops were
acting as six or seven different entities, opposing and negating one another shows
there was no coordination nor requisite reassessment of any threat continuum. That
failing reassessment kept them on a war footing, aggressing Eric Westry with
intent to punish and harm him and with indifference to his daughter. In doing so,
they fired a weapon and are culpable and liable to violations of not only Eric
Westry’s rights, but to his daughter’s as well. The video supports these facts, which
controls. VIDEO CONTROLS.
This decision was NEVER, as the court remarked, “viewed in the light most
favorable to the plaintiff...” or per the true facts presented by the Plaintiff above or
the court would have correctly found me non threatening—helpful even doing the
police’s job—and compliant and therefore entitled to provisions that officers may not
use a taser against a compliant or non-threatening suspect.’under Muschette on
18

Behalf of A.M. v. Gionfriddo, 910 F.3d 65, 69 (2

nd

Cir. 2018). citing Garcia v.

Dutchess Ctv.. 43 F. Supp. 3d 281, 297 (S.D.N.Y. 2014) (such force may not be used
against an arrestee ‘who NO LONGER actively resisted arrest or posed a threat to
officer safety.” If the police thought I was a threat but decided to assist them means
“NO LONGER ACTIVELY RESISTED.”
The District Court erred by dismissing this complaint in one or more of the
following ways: Violation of 4th Amendment through the violation of privacy in
one’s home and specifically one’s sanctuary of bedroom through this random and
abusive search and seizure via Mapp v. Ohio. This happened four hours after an
argument, proving there were NOT exigent circumstances warranting the kicking
down of the door of the private sanctuary of a U.S. Citizen who is entitled to Fifth
Amendment protections of procedural due process (in civil and criminal
proceedings) and substantive due process. The basis if inquiry or judicial review is, I
imagine to balance the importance of the government’s interest with the
appropriateness of the methodology employed and implemented with the eventual
infringement of Eric Westry’s right serves as the fundamental requisite of the
highest level of judicial review and strictest scrutiny. That video is not the paragon
of a police force’s supposed training to de-escalate, diffuse, and disarm. Per
substantive due process it constitutes a violation of my RIGHTS OF LIFE,
LIBERTY OR PROPERTY WITHOUT DUE PROCESS OF LAW. Hospitalizing me
twice in relation to the same incident and again after release, holding me hostage in

19

Waterbury the police station after release in New Haven is draconian mistreatment
and a vulgar display of governmental power.

By federal law, wayward police who have lied on the Connecticut government
record, BEFORE they knew their illegal actions were recorded, which were in
violation of sections 1331, 1343(3) and 1367(a) of Title 28 and Sections 1983 and
1988 of Title 42 of the United States Code are subject to facilitation and acceptance
of a false police report which impeaches the police, the state attorney, and dcf under
“falsus in uno, falsus in omnibus, meaning “false in one thing, false in everything,”.
Yes, in each person’s home, they have the highest possible expectation of privacy
inside their own home, and arguably, even more so in their bedroom and further, in
their bed! Absent possession of a warrant for my arrest, the police must have some
emergency reason, called "exigent circumstances", for entry into my daughter and
my home which, arriving 4 or more hours late at 21:39 on 05.APR.2016 IS NOT A
RESPONSE TO EXIGENT CIRCUMSTANCES!

Fourth Amendment violation of unreasonable force by a Waterbury police
officer prompted and warranted this civil action pursuant to 42 USC § 1983. The
plaintiff trained in psychology, education, and medicine, holds three graduate
degrees and three years of medical school physician training and has never
endangered people or specifically children over the decades of his training and
professional practice, saving children and families’ lives. The defendant admits to
firing his weapon, striking the plaintiff laying in bed, while holding his infant child
20

in REAL TIME. The video that makes clear the plaintiff attempted—pleaded, no
less— “I am handing her to you”— was repeated by the court—who further
CONFUSES the situation, REFERRING TO ANOTHER PERSON, unless he is
DELIBERATELY LEAVING OFF THE AFRICAN PART OF MY CHILD’S FIRST
NAME—chooses instead to relv on a three-vear old memory of the event: a
deposition that is mischaracterized/misquoted out of context, as the plaintiff pulling .
awav from the police. (The Plaintiff clearly states that he cannot expect to
remember every detail from three years ago (ignored, not quoted by the judge) and
that the Video provides better facts than a deposition, which as clearly reordered,
twisted, perverted, and misinterpreted by the court.) The audio-video clearly proves
that the plaintiff initiated and tried to enlist the police’s help in compliance, stating
his intent “I am handing her to you” as that the plaintiff was pulling TOWARD the
closest police officer while other officers were pulling against him in the opposite or
different direction, towards themselves, adjacent and behind the Plaintiff. Trying to
pry my arms open instead of taking my child, willingly offered to them is like
handing money over to a cashier who then grabs my hand and wrestles the money
away: pushing on an open door; it prevents me from doing the job for the police—
handing my child to the closest one. So, the defendant is claiming that I fought
them forcing them to accept an outcome that they actually endeavored to achieve? It
doesn’t make sense unless their true endeavor was conflict and violence because
they felt insulted by my initial verbal protest. Their was never a reassessment and
modification of their behavior. They made this a fight by pushing on an opening
21

door. It is against the laws of physics to hand the child to more than one person in
different locations simultaneously; only one can receive the child but the police
chose to fire a weapon in its stead and write false perjurious sworn statements in
police reports before they knew of the existence of a video. (The court—or better a
jury—has plenty reason, for this fact alone, to question the credibility of the police.
This was specifically said—and apparently ignored or overlooked in the deposition
available to the court.) To be clear, the offending forces were the officers choosing to
assault a man and child, even after he asked them to take her. Punishment
submitting these words offering the child are untenable, undisputed and illegal
under 42 USC § 1983 law, the court’s and defendant’s acknowledgment that “[i]t is
clearly established that officers may not use a TASER against a compliant or non­
threatening suspect,...” qualified immunity does not exist as the video controls,
NOT a mischaracterized cherry-picked and DATED albeit otherwise accurate eye­
witness account. “I am handing her to you” and “I will hand her to you” while
attempting to do it is the very definition of “compliant and non-threatening”
behavior, which reverses a manufactured opinion, against the facts, that there was
qualified immunity.

FEDERAL RULES OF PROCEDURE: Objection of “Facts.”

According to Federal Rules of Procedure, “facts” of the misquoted or
mischaracterized deposition, comment during the attempted offer of minor child,
constituted NOT a tug-of-war but a contradiction of the only available evidence of
22

an offer by Eric Westry of his child, to the nearest officer: Video. This claim of
threatening noncompliance constitutes a genuine dispute by the defense and an
OBJECTION to a “fact” supported by admissible evidence in favor of the Plaintiff.
The Plaintiff may object to the court’s and defense’s support of a SUBJECTIVE
OPINION that Eric Westry was pulling away from officers, demarcating a disputed
assertion from fact that can be presented as a form of admissible evidence because
Eric Westry can prove to a jury that he was—in fact—pulling IN the direction of the
closest officer and talking to him, no less. Per Hon. Joseph Shortall (Case: HHBCV17-5020951-S) the video is the best most objective information for what
happened that night of which the Connecticut assistant attorney general
acquiesced. The video controls, NOT judicial replacement of an out-of-context
recitation of a deposition. VIDEO is the ONLY OBJECTIVE EVIDENCE
AVAILABLE and the entire video contradicts EVERYTHING the police wrote in
their ILLEGAL and PERJURIOUS SWORN STATEMENTS, again genuine dispute
of the defendant’s disingenuousness. The full police record and lie that the child was
removed before the Plaintiff offered his child to the police assaulting both Plaintiffs
is indicative of the police’s consciousness of guilt. They needed to make it sound bad,
dangerous, and threatening. The video was a completely haphazard attempt by a
groggy, just awoken father to protect this Black man—and former innocent victim of
New York City Stop and Frisk policies and other indignities—and his daughter
from the historically destructive force of some, not all, police in their communities.
Per Rochin v. California, “On appeal, the District Court of Appeal affirmed the
23

V

conviction, despite the finding that the officers were guilty of unlawfully breaking
into and entering defendant's room and were guilty of unlawfully assaulting and
battering defendant while in the room," and—as was the following in Mr. Westry’s
case—“were guilty of unlawfully assaulting, battering, torturing and falsely
imprisoning the defendant at the alleged hospital” was a violation of Mr. Westry
and his daughter A.W.s’ Eight Amendment Rights of the Constitution of the United
States.”(Rochin v. California 101 Cal. App. 2d 140, 143, 225 P. 2d 1, 3)

The defendant is in violation of sections CONN. GEN. STAT. § 46a-100 and
in connection with the pattern-or-practice provision of the Violent Crime Control
and Law Enforcement Act of 1994, 42 U.S.C. § 14141, additionally the “Safe Streets
Act” Omnibus Crime Control and Safe Streets Act of 1968, 42 U.S.C. § 3789d Title
VI and VII of the Civil Rights Act of 1964. Victor Leon and his agents are
responsible for violations of Connecticut Statues and Civil Rights Laws included but
are not limited to, Equal Protection: Article First, Section 20 as amended by Article
V and Article XXI of the Amendments to the Connecticut Constitution; C.G.S.
Section 46a-58(a); C.G.S. Section 46a-69 and C.G.S. Section 46a-71(as amended by
Public Act 01-28) are also applicable violations by the defendant.

Irreparable damages have been caused after their excessive force to this
appellant and his daughter by the defendant when he and police proceeded to lie to
state officials, causing the plaintiff to lose income, reputation, career, permanently
and most importantly a daily life living with his daughter for 1,984 DAYS and
24

counting [due to a false police report and violation of 17a-101k-3 of the Regulations
of Connecticut State Agencies. Reg. Conn. State Agencies § 17a-101k-8(j)] which
were used to permanently destroy the plaintiffs income capacity and reputation as
stated by Judge Joseph Shortall who went further to characterize the decision as
“erroneous” and the resulting insult to injury as “grossly negligent” and “egregious”
all emanating from the illegal actions of the defendant in this case.

The district court correctly found that Mr. Westry’s constitutional rights were
violated. This should have taken into account Mr. Westry’s words to defend his
home followed by IMMEDIATE acquiescence in seconds to trying to hand his
daughter to the nearest officer. (It should not be lost on the court, the commendable
record with stellar recommendations of an experienced mental heath and
educational professional, possessing three graduate degrees and three years of
medical school education and that was UNARMED!) He was pulling in his (the
officer’s) direction while other officers were pulling in opposing directions
ADMITTED TO BY THE DEFENSE). While it was Mr. Westry who chose to defuse
and use restraint, deescalation, and compliance, the defendant and waterbury
police, are the ones that chose the escalation to War-like, militant, soldier
mentality, looking for some “action,” losing self control, discipline and defying their
responsibility to defuse and deescalate, but finding retribution and retaliation in
response to nonviolent verbal resistance [(the aforementioned destruction of
livelihood and reputation, a violation of Eighth Amendment of the United States

25

Constitution (Cruel and Unusual Punishment)]. Given the defense’s argument, they
have the right to kill someone for disagreeing with them WHILE LAYING ON
THEIR BACK UNARMED AND DEFENSELESS, which is what the Plaintiff was
emphasizing when the defense engages in frivolous subterfuge, in mangacci
attempts to emphasize and pervert words of Plaintiff in defense of his home as I AM
GOING TO KILL THE POLICE; it is ridiculous and desperate to use the words “Oh
no”...as anything other than Mr. Westry attempt to contextualize, redirect, and
emphasize this nonviolent verbal protest of the plaintiff and police’s invasion of his
home ON HIS BACK. It was clearly an attempt to bring the conversation back to
the fact that FATHER AND CHILD WERE ON THEIR BACK, UNARMED AND
OUTNUMBERED AND CLEARLY NOT A THREAT, REGARDLESS OF A
VERBAL PROTEST. The district court reordered the facts, giving the false
presentation and impression of a threat AFTER Mr. Westry said to the nearest
officer, “I am handing her to you, I am handing her to you” to be met with the
defendant firing his weapon at Mr. Westry AND his daughter A.W. anyway (DO
NOT CALL HER “AMELIA”). This is the same mentality of Officers Stephen Hart
and Anthony Carelli where the former said, “I don’t give a flick NIGGER” open the
door and the latter fired the fatal shot in Kenneth Chamberlain Chamberlain v.
City of White Plains, No. 16-3935 (2d Cir. 2020). By right, both Westrys have had
their lives illegally put in danger from this assault. Is there no room for correction
and flexibility to preserve life? If Mr. Westrv could do it. certainly these officers
should have performed the same. This would not be the case if Mr. Westry was
26

White; he would not be hospitalized and probably not arrested with NO PICTURES
OR EVIDENCE OF AN ASSAULT. WHERE ARE THE PICTURES, I ASK THE
JUSTICES OF THIS COURT? There were NO exigent circumstances; no reason for
the police to come in and “kick some ass”; “get some action”; or “tune him up” and
then blame him, echoed by Judge George Levine (2018) HHB-CV17-5020951-S after
viewing the video, (paraphrased as being punished anyway)! [This was an egregious
violation of Eighth Amendment of the United States Constitution (Cruel and
Unusual Punishment).] This Institutional racism and resentment by some people in
this violent power structure needs to be reformed to protect ALL people. This is a
matter of recruitment of police officers engendering a respectful and safe culture
with the proper temperament, not to kill people by whom they feel offended or
resentment and are sworn to protect.
There is no doubt that the wayward defendant and police, risked the life of
Mr. Westrv but also his daughter who in the defendant’s argument, was
noncompliant and threatening and deserving of being fired upon, risking her iniurv
AND her father’s. This was reckless and the plaintiff implores the court should take
the liberty to consider this violation and claim of infringement of both father and
daughter’s rights. Would you fire a revolver, shotgun, rifle or taser gun at a father
and child centimeters apart? What the Hell were.they thinking, bringing out a
weapon when—according to my counsel and recollection, approximately up to
SEVEN OFFICERS WERE PRESENT IN MY BEDROOM. (Each person has the
highest possible expectation of privacy inside their own home, and arguably, even
27

more so in their bedroom and ultimately more in their bed, WITHOUT THE
PRESENCES OF EXIGENT CIRCUMSTANCES AS THERE WERE NOT, FOUR
HOURS LATER, FROM A NONVIOLENT EVENT.) Are they so inept and cowardly
that they can’t have a conversation—or send someone in with a fraction of the
father’s level of psychological training and credentialing—to talk intelligently with *
a man holding his own baby? Fire and brimstone was never the answer. War was
not the answer for those who had the advantage and numbers from the start and
were clearly not under threat. The defense prattles on about threat but there was
no physical threat from Mr. Westry; it was tantamount to, and no credible than, a
civilian claiming he has the nuclear codes and imminently plans to launch nuclear
weapons at the country’s nearest adversary with nothing but a baby in his arms
laying on his back in bed. There was NO credible notion of a threat. These police,
including the defendant, didn’t have the commonsense, judiciousness, and good
discernment to differentiate adult acne from hand slap marks, or to understand “I
am handing her to you” is actually pushing on an open door? Their actions were
untenable as stated in the Constitutional Amendments and United States Code that
prohibit them. Perhaps they needed someone with the education and training to
accompany them, to think outside of the fog of war, in which, their local and
national conscience resides.
I ask the court, why was it necessary then—if they were so exemplary and
right—for the police to lie (also found by Judge Shortall HHB-CV17-5020951-S) on
sworn statements in the police report, if there was no consciousness of guilt? This
28

defendant participated in creating a legal document that the actual event on video
contradicts: A sham created by the defendant. Their mentality is for capitulation all
around, even when they are at fault.
They claim they had no access claiming the door was lock, when in fact the
bedroom door is never locked to Maria Westry (She comes home everyday to the tool
on the bookcase a meter away to open the door (in trial testimony UWYFA-16-6031090-S May and June 2017 under Judge Cutsumpas which the defense
never bothered to research). This after a home invasion on 10 May 2007 and the
criminal from the next door neighbors, apprehended after this appellant chased him
away from his home, as any person had the right in their own home. By contrast to
this present case, Mr. Westry was passive and eventually—in a matter of secondspassive, physically, and verbally compliant, clearly stating, “I am handing her to
you.”) The criminal case in any iteration of process would have been dismissed and
was. Yet I remain imprisoned by lies, deceit and animus because of subsequent
illegal actions of rogue administrative agencies parroting and propagating false
police reports written by the defendant: Judge Joseph ShortalTs findings were that
such agencies actions were “erroneous,” and “egregious,” and “grossly negligent...”
that “...can have severely harmful consequences that that person’s livelihood and
reputation and may have had such consequences for this appellant.” That agency’s
accountability has been deferred until 2022 but what about the root cause: This
defendant Mr. Leon and the waterbury police?

29

CONCLUSION
Honorable Justices, I have proven that my lawyers nor have I ever failed to
reject this creation of the defense, that we never demurred on. assertions that I
committed a crime of assault and admitted that is why the police were summoned
where I was threatened a room full of up to seven cops, who faked a police report,
stating that I was physically provocative and threatening to them, saying in sworn
statements, “y°u better get out of here.” That is but one of the crimes the police
committed. This declination to dispute NEVER HAPPENED.

With the accurate and correct facts in place the district court who already
found:

“...Officer Leon argues that summary judgment should be granted because ‘under
these circumstances, the actions [were] totally reasonable and, therefore, no
constitutional violation occurred.’ Id. at 8. The Court disagrees.”
Finding that my Fourth Amendment rights were violated then accords with
Judge Bolden, ‘At the time of this arrest, it was “clearly established that officers
■ may not use a TASER against a compliant or non-threatening suspect.” Muschette,
910 F.3d at 69 (citing Tracv v. Freshwater, 623 F.3d 90, 96-98 (2d Cir. 2010); Garcia
v. Dutchess Cty., 43 F. Supp. 3d 281, 297 (S.D.N.Y. Aug. 21, 2014) (concluding that
it is clearly established in the Second Circuit that “it [is] a Fourth Amendment
violation to use ‘significant’ force against arrestees who no longer actively resisted
arrest or posed a threat to officer safety’) [sic]. Per Eric Westry “I am handing her to
you” and “I will hand her to you” while attempting to do it, is the very definition of

30

“compliant and non-threatening” behavior, which reverses a manufactured opinion.
against the facts, that there was qualified immunity. The district court decision was
a non sequitur under the true facts and complete record.

There is no doubt that the wayward defendant and police, risked the life of
Mr. Westrv but also his daughter who in the defendant’s argument, was
noncompliant and threatening and deserving of being fired upon, risking her injury
AND her father’s. This was reckless and the plaintiff implores the court should take
the liberty to consider this violation and claim of infringement of both father AND
DAUGHTER’S RIGHTS BY THE DEFENDANT. Again, would you fire a revolver,
shotgun, rifle or taser gun at a father and child centimeters apart? Again what the
Hell were they thinking, bringing out a weapon when—according to my counsel and
recollection, approximately up to SEVEN OFFICERS WERE PRESENT IN MY
BEDROOM. (Each person has the highest possible expectation of privacy inside
their own home, and arguably, even more so in their bedroom and ultimately more
in their bed, WITHOUT THE PRESENCES OF EXIGENT CIRCUMSTANCES AS
THERE WERE NOT, FOUR HOURS LATER, FROM A NONVIOLENT EVENT.)

The RACIST, SEXIST, and DISPARITIES of one’s POLITICAL STATION,
between this case and the State of Connecticut v. Justina Moore (Connecticut
Prosecutor) never being held to account did not experience the damages of lost
parenting my child, home, car, career, income, reputation and any form of livelihood
and peace of mind from emotional distress and anguish in a case similarly situated
31

sans my innocence, but for her fleeing, which makes her situation worse while
receiving no accountability—are exactly why this is a disparate civil rights issue to
be handled by a jury!

I therefore respectfully ask this Court to reverse the judgement of the district
court and affirmation of the appellate court with a finding in fact in favor of the
appellant ending this 1,984 day nightmare for constitutional violations and punitive
emotional distress, damages (five years and continuing loss of livelihood and
permanent reputation damages: a bell that cannot be unrung). In the alternative
the court should remand the case for a fair and impartial trial before an
unprejudiced jury on proper evidence and under correct instructions as is just and
proper. The Motion for Summary Judgment, with NO QUALIFIED IMMUNITY
. should be issued in keeping with the video that always controls.

As Black people in this country have historically been failed by the “Justice
System” specifically courts, vis-a-vis the interests of fair and equal justice, Judges
know these cops lied on police reports stating that I told them they “better get out
of here.” taking a physically aggressive and provocative stance to make me sound
threatening and still their testimony was not impeached? This is also part of the
institutional racism in the system. Video supercedes sworn testimony Scott v.
Harris, 550 U.S. 372 (2007); Addona v. D’Andrea, 692 Fed. Appx. 76 (2017)'.

32

Perhaps most tellingly, the errors, misrepresentations, and out right lies here
against me have culminated to and constitute, Fifth and Fourteenth procedure and
substantive due process violations, Equal Protection violations, that eventually led
to Eighth Amendment Cruel and Unusual Punishment violations that have had an
unalterable effect on my family, emotional, financial, and physical health and well­
being.

The petition for a writ of certiorari should be granted.
Respectfully submitted,

Date: 11 SEPTEMBER 2021

33

